No.

 

IN THE SUPREME COURT OF THE UNITED STATES

SIDNEY PATTERSON,
Petitioner,

v.

UNITED STATES OF AMERICA,
Respondent

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

PROOF OF SERVICE

I, Autumn Town, do swear or declare that on this date, November 20,
2020, as required by Supreme Court Rule 29, I have served the enclosed
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and
PETITION FOR A WRIT OF CERTIORARI on each party to the above
proceeding or that party’s counsel, and on every other person to be served, by
electronic mail or by depositing an envelope containing the above documents
in the United States Mail properly addressed to each of them and with first-
class postage prepaid, or by delivery to a third-party commercial carrier for
delivery within 3 calendar days.

The names and addresses of those served are as follows:

Solicitor General of the United States
Per consent, via electronic mail only to supremectbriefs@usdoj.gov

Kevin Boitmann, Assistant United States Attorney
Via electronic mail only to kevin.boitmann@usdoj.gov

Samantha Kuhn (counsel for Deloyd Jones)
Via electronic mail only to samantha_kuhn@fd.org
Rachel Conner (counsel for Byron Jones)
Via electronic mail only to rachel@connerdefense.com

I declare under penalty of perjury that the foregoing is true and correct.

Executed on the 20% day of November, 2020.

LAW OFFICE OF AUTUMN TOWN, LLC

AutumtrTown

700 Camp Street

New Orleans, Louisiana 70130
Telephone: (504) 507-0832

Fax: (504) 824-0216

Email: autumn@town:law.com
Counsel for Sidney Patterson
